KANNON K. SHANMUGAM
TELEPHONE
FACSIMILE

(202) 223-7325
(202) 204-7397

E-MAIL: kshanmugam@paulweiss.com

June 29, 2021

BY ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Nettles v. Midland Funding LLC, et al., No. 20-1673

Dear Mr. Harris:
I represent respondents in the above-captioned matter. Pursuant to Supreme Court Rule 30.4, I hereby request a 30-day extension of time in which to file
a response to the petition for a writ of certiorari in this case. The petition for a writ
of certiorari was docketed on June 2, 2021. A response to the petition is currently
due on July 2, 2021. If extended, the response would be due on August 2, 2021 (a
Monday). Should you need any additional information, please do not hesitate to let
me know.
Yours sincerely,
Kannon K. Shanmugam

cc:

Gene C. Schaerr, Esq.

